DOE/IG-000SP/03


U.S. Department of Energy
Offi ce o f Insp e ct o r G e ne ra l


STRATEGIC
PLAN
Fiscal Years 2003 - 2008
              "Promoting


                  in Government"
                          Message from
                      the Inspector General

We             are pleased to present the Office of Inspector General’s (OIG)
Strategic Plan covering Fiscal Years 2003 - 2008. This plan represents our vision
and strong commitment for improving the management and performance of the
Department of Energy’s many programs and operations.

The OIG plays a key role in assisting the Department’s senior management and the
Congress by identifying opportunities to improve program performance and
enhance accountability. The OIG seeks to further serve as a catalyst for
management reform by evaluating the Department’s performance in relation to
the President’s Management Initiatives and the Secretary of Energy’s priorities. On
an annual basis, we identify what we consider to be the most serious management
challenges facing the Department. The OIG assesses the impact of these
challenges on program performance and achievement of Departmental strategic
goals and objectives.

Meeting the goals and objectives outlined in this plan is largely dependent on the
availability of adequate resources. We plan on continuing our request for
resources that allow the OIG to address issues resulting in significant cost savings
to the Department, returning more dollars to the Federal Government, and
recommending management improvements.

It is the OIG’s vision to identify opportunities to facilitate positive change,
allowing the Department to perform its work more effectively and efficiently,
while, at the same time, being responsive to the best interests of the taxpayers.




Gregory H. Friedman
Inspector General
                    Table of Contents
                                                                         Page

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Vision, Mission, and Goals . . . . . . . . . . . . . . . . . . . . . . . 3

Authority and Responsibilities . . . . . . . . . . . . . . . . . . . . 4

Organization and Functions . . . . . . . . . . . . . . . . . . . . . . 7

Relationship Between DOE and OIG . . . . . . . . . . . . . . . . 13
Achieving Our Goals . . . . . . . . . . . . . . . . . . . . . . . . . . 15
      Goal 1:        Promote the Agendas of the
                     President, Secretary,
                     and Congress . . . . . . . . . . . . . . . . . . . 15

      Goal 2:       Improve Economy and Efficiency
                    and Reduce Waste, Fraud, and Abuse
                    within the Department . . . . . . . . . . . . 15

      Goal 3:       Support the Taxpayer . . . . . . . . . . . . . . 18

Our Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Critical Outside Influences . . . . . . . . . . . . . . . . . . . . . 20

Linking the Planning Documents Together . . . . . . . . . . . 21

Working Together . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

Program Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . 27
                            Introduction

The Department of Energy (Department) was created in 1977 and is charged with:

   •   Oversight and management of public energy resources

   •   Stewardship of the Nation’s nuclear weapons and materials

   •   Continued leadership in energy-related science and technology

The tragic events of September 11, 2001, and the continuing threat posed by
terrorist organizations seeking weapons of mass destruction such as dirty bombs,
along with the technology and expertise to build weapons of mass destruction,
pose profound security concerns. The Department plays a critical role in
enhancing the United States’ national security through the military application of
nuclear technology and reduction of global danger.

The responsibility of the Office of Inspector General (OIG) is to ensure that the
Department is:

   •   Operating within the scope of its legislative mandates

   •   Effectively performing the goals of its programs

   •   Efficiently using Federal resources (including human and financial)

The OIG accomplishes this by performing audits, investigations, inspections, and
special inquiries of the Department’s programs and operations seeking to uncover
existing or potential weaknesses that could result in waste, fraud or abuse.

This strategic plan reflects the vision of the Inspector General for how the
organization will move forward in the 21st century to ensure the Department
continues to serve the American public safely, effectively, and efficiently.
Through its strategic planning efforts, the OIG will continue to play a critical role
in assisting the Department’s senior leadership and the Congress by identifying
opportunities for improving management, program performance, and
accountability. The primary goal is to assist the Department in meeting the
challenges set forth in the President’s Management Reform Agenda, the Secretary
of Energy’s priorities, and the most significant management challenges facing the


                                                                                        1
    Department. The OIG recognizes, however, that these challenges are subject to
    change as Department and OIG priorities shift and as significant challenges
    relating to national security continue to emerge.




2
                            Our Vision
   To be a highly effective organization that promotes positive change by
   identifying opportunities for improvements in the performance and effi-
   ciency of the Department’s programs and operations.




                            Our Mission
   Promote the effective, efficient, and economical operation of the Depart-
   ment of Energy, including the National Nuclear Security Administration,
   through audits, investigations, inspections, and special reviews to detect
   and prevent waste, fraud, abuse, and violations of law.




                       Our Strategic Goal
    Operate a robust review program and provide timely performance infor-
    mation and recommendations to facilitate the Department’s efforts to:
    1.   Implement the President’s Management Agenda
    2.   Resolve management challenges
    3.   Execute the Secretary’s priorities
    4.   Ensure integrity of the Federal and contractor workforce
    While ensuring that the OIG completes statutory mandates, recovers
    monies and provides opportunities for savings.




         Goal 1                     Goal 2                       Goal 3
Promote the Management        Improve economy and          Support the Taxpayer.
Agendas of the President,     efficiency and reduce
Secretary and Congress.       waste, fraud, and abuse
                              within the Department.




                                                                                   3
                           Authority &
                         Responsibilities




    What We Do

    •   Conduct independent and objective audits, investigations,
        inspections, and special inquiries;

    •   Promote economy, efficiency, and effectiveness;

    •   Prevent and detect waste, fraud, and abuse;

    •   Review pending legislation and regulations; and

    •   Keep the Secretary and Congress fully and currently informed.




4
In further fulfillment of its mission and goals, the OIG also performs a number of
functions mandated by other statutes, Executive orders, regulations, and
Department policy.




                              Other Legal Mandates

             ♦   Government Management Reform Act
             ♦   Government Information Security Reform Act
             ♦   Federal Managers’ Financial Integrity Act
             ♦   Government Performance and Results Act
             ♦   Executive Order 12863, President’s Foreign Intelligence
                   Advisory Board
             ♦   Executive Order 12333, United States Intelligence Activities
             ♦   National Defense Authorization Act for Fiscal Year 2000
             ♦   Department of Energy Accounting Handbook—Annual
                   Statement of Costs Incurred and Claimed Audits




   How We Do It

The OIG is a revenue-positive organization. In FY 2001, the OIG made
programmatic recommendations to save or better utilize over $1.2 billion.
Additionally, since FY 2000, the OIG has returned over $56 million in hard dollars
to the Federal Government as a result of criminal and civil investigations of
alleged contractor false claims and other fraud cases.

Success Stories – Potential Savings to the Department of Over
$4.7 Billion and Positive Program and Management Improvements!

     •   The Department agreed to finalize DOE Manual 205.X, Handling Cyber
         Security Alerts and Advisories, Reporting Computer/Cyber Security
         Incidents, which will clarify responsibilities and processes for responding
         to cyber security incidents. The potential savings are $6.8 million.

     •   The Department has taken action to complete the W88 pit production
         project on schedule, citing urgent and compelling national security
         implications in doing so.




                                                                                       5
    •   The Department agreed to evaluate alternatives to construction of a
        waste vitrification facility which will result in a potential savings of
        $2.4 billion.

    •   The Department agreed to take actions that could save at least
        $4 million annually by consolidating and optimizing segments of its
        telecommunications infrastructure.

    •   The Department is in the process of converting surplus plutonium into
        mixed oxide fuel for use in nuclear reactors. This process is expected to
        save about $1.7 billion.

    •   In FY 2002, the Department terminated funding for the soil washing
        activities at the Ashtabula Environmental Management Project. This
        should result in at least $6.1 million in savings.

    •   The Department has committed to conduct an analysis of viable
        alternatives to the construction of the Plutonium Immobilization Facility.
        A more economical alternative to the disposal of excess plutonium could
        save the Department $650 million.

    •   The Department initiated actions to address testing backlogs for the
        Stockpile Stewardship Program and indicated that most of the laboratory
        and component backlogs are scheduled to be eliminated by the first part
        of FY 2003.

    •   The Department received $3.8 million as a result of a joint task force
        investigation and civil settlement agreement in which a contractor paid
        the Government $8.2 million to resolve a Qui Tam lawsuit alleging the
        contractor submitted millions of dollars in false invoices.

    •   The Department has instituted an aggressive program to combat, and
        provide reasonable assurance against, Government purchase card abuse.




6
                 Organization & Functions

  Organizational Restructuring

Over time, the Department’s responsibilities, missions, organizational structure,
and priorities have shifted. Now the Department’s focus is on meeting critical
requirements in national security, energy, science, and environmental quality.
New responsibilities, authorities, and working relationships have emerged, and
many of the Department’s programs and operations are now integrated to ensure
more effective results.

With the Department’s evolving needs and changing priorities, the OIG recognized
that it must reorganize its operations in order to meet these needs and continue
providing the most timely performance information and recommendations
possible. Therefore, to meet this challenge, the OIG reorganized both the Office
of Audit Services and the Office of Inspections and established a new Office of
Program Review and Special Inquiries.


           Office of Audit Services

Realigned its Headquarters and field activities to provide more comprehensive
coverage of all Department organizations, programs, and operations. The new
organizational structure also combines the strengths of existing site offices
with the newly aligned Audit Services Divisions for the purpose of reviewing
the Department’s major programs. In Headquarters, a critical void was filled
in the area of audit planning. In the field, the regional structure was realigned
along programmatic lines, which strengthen coverage of critical areas in the
National Nuclear Security Administration, environmental quality, energy,
science, technology, and financial audits. This change provides better
coverage of programmatic areas and supports a balance between single-site
and multi-site audits.


            Office of Inspections

Realigned its organization to provide a structure more supportive to field
inspection operations. The changes support current efforts to redefine the

                                                                                    7
    inspections operations process to one that is more efficient and customer
    responsive. These changes should result in an increase in the number of
    inspection reports produced annually.


                 Office of Program Review and Special Inquiries


    Established to perform special, expedited reviews or inquiries concerning high
    profile or sensitive matters. It is designed to leverage the collective expertise of
    an inter-disciplinary staff by providing a focal point of operations for expedited
    special inquiries and reviews using ad hoc teams.




8
                  Who We Are Now




The OIG is organized into four major functional areas and a corporate
support office:

•   Office of Audit Services
•   Office of Investigations
•   Office of Inspections
•   Office of Program Review and Special Inquiries
•   Office of Resource Management

In addition to the Washington, D.C. area, OIG offices are located at key
Department sites around the Nation.

                      Location of OIG Field Offices




                                                                           9
             Office of Audit Services

     •   Conducts and/or coordinates all audit activities for the Department’s
         programs and operations. Audits fall into three broad categories:

          − Performance: Provides an independent assessment of the
            performance of an organization, program, activity, or function in
            order to provide information to improve accountability and facilitate
            decision-making by parties with responsibility to oversee or initiate
            corrective action.

          − Financial statement: Provides reasonable assurance about whether
            financial statements of an audited entity present fairly the financial
            position and results of operations in conformity with generally
            accepted accounting principles.

          − Technology: Provides an assessment of the Department’s
            information systems operations and acquisitions, and tests the
            vulnerability of automated systems to unauthorized intrusions.


              Office of Investigations

     •   Performs investigations into allegations of fraud, waste, and abuse in
         programs and operations of the Department.

     •   On a priority basis, investigates suspected violations of criminal and civil
         statutes, as well as serious administrative misconduct.

     •   Focuses on the prevention and detection of contract and grant fraud,
         environmental violations, computer crimes, and issues that reflect on the
         integrity and credibility of Department officials.

     •   Investigates complex computer crimes committed against the Department
         and provides computer forensic support during general fraud
         investigations.




10
         Office of Inspections

•   Performs reviews of administrative allegations and of Department
    performance.

      − Allegation-based inspections: Are highly focused, fact-finding efforts
        that are typically responsive to allegations of waste, abuse, or
        mismanagement. As such, these types of inspections are not
        specifically planned in advance; rather, the scope of each inspection
        is established when the determination is made to review the
        allegation.

      − Performance inspections: Focus on fact-finding and analysis
        regarding specified management issues/topics. The scope of each
        performance inspection is usually tightly focused around a particular
        issue or topic.

•   Performs all OIG intelligence oversight and reporting as required by
    Executive order and statute, and investigates certain types of
    whistleblower reprisal complaints.

•   Maintains the Inspector General Hotline to facilitate the reporting of
    allegations and processes referrals of administrative allegations to
    Department management.


         Office of Program Review and Special Inquiries

•   Performs special, expedited reviews or inquiries concerning high profile or
    sensitive matters. Examples of these reviews include:

      − Fact-finding inquiries
      − Initiatives in support of proactive OIG program areas (e.g.,
        procurement cards, grants, contracts, etc.)
      − Follow-up evaluations of agency implementation of prior OIG
        recommendations
      − Reviews of particularly sensitive security or NNSA matters
      − Assessments of agency implementation of major Administration or
        Secretarial priorities
      − Reviews in response to congressional requests


                                                                                  11
               Office of Resource Management

     •   Directs the development, coordination, and execution of overall OIG
         management and administrative policy and planning, which includes
         directing:

           −   OIG’s strategic planning process
           −   Financial management activities
           −   Personnel management programs
           −   Information resource programs
           −   Administrative support services

     •   The office also coordinates activities of the President’s Council on
         Integrity and Efficiency (PCIE).




12
                     Relationship Between
                          DOE & OIG
Since 1997, the OIG has provided the Secretary and Congress with an annual
assessment of the most serious management challenges confronting the
Department. These challenges parallel a number of key Department priorities and
Presidential initiatives around which the OIG plans much of its work.



                       Department of Energy
                      Management Challenges
                     ♦ Contract Administration
                     ♦ Environmental Cleanup
                     ♦ Information Technology Management
                     ♦ National Security
                     ♦ Performance Management
                     ♦ Stockpile Stewardship
                     ♦ Worker/Community Safety




Achievement of the Department’s strategic goals are driven by these management
challenges. The OIG’s goals are partially driven by the goals of the Department.
Therefore, it is important to understand the goals of the Department to
understand the link to OIG goals.

         •   National Nuclear Security
             Maintain nuclear weapons stockpile
             Maintain nuclear development capability
             Reduce danger of global nuclear assets
             Provide nuclear power plants to U.S. Navy

         •   Energy Resources
             Promote energy conservation
             Modernize the energy infrastructure
             Increase energy supplies
             Protect the environment
             Increase energy security

                                                                                   13
     •   Science
         Develop future energy technology options
         Develop scientific foundations to protect the planet
         Understand impact of energy on health and environment
         Maintain U.S. scientific leadership

     •   Environmental Quality
         Clean up nuclear contamination of Department sites
         Establish repository for U.S. civilian and defense high-level nuclear
         waste

     •   Corporate Management
         Ensure safety and health of workforce and public
         Maintain effective management of all Department activities




14
                    Achieving Our Goals
                 e A 1 the Agenda of the President, Secretary, and

       Goal 1: Promote the Management Agendas of
          the President, Secretary, and Congress


1. Objective: Conduct reviews seeking positive change in the Department
   relating to the implementation of the initiatives in the President’s
   Management Agenda, the Secretary’s Priorities, and the OIG-identified
   Management Challenges.

   Strategy:

   •   Conduct reviews as outlined in the OIG annual plan relating to: (1) the
       President’s Management Agenda initiatives; (2) the Secretary’s Priorities;
       and (3) the OIG-identified Management Challenges. Specifically:

          − Complete reviews that address all of the President’s, Secretary’s,
            and OIG-identified initiatives, priorities, and/or challenges as
            identified in FY 2002 by 2005.

          − Conduct a review within one year of new initiatives and priorities,
            that the Department has initiated.



  Goal 2: Improve economy and efficiency and reduce
    waste, fraud, and abuse within the Department


1. Objective: Concentrate OIG efforts on issues that have the greatest impact
   and usefulness to the Department.

   Strategies:

   •   Ensure that every performance review includes an analysis of program
       accomplishments and the use of metrics to measure results.




                                                                                    15
        •   Ensure at least 50 percent of all performance audits include
            recommendations leading to demonstrable cost savings, program
            efficiencies and/or funds that can be put to better use.

        •   Complete five follow-up reviews annually from FYs 2003 to 2008 to
            determine status and efficacy of corrective actions.

        •   Complete an annual risk-based programmatic assessment that considers OIG
            institutional knowledge, past program performance, funding levels,
            Presidential, Secretarial, and congressional concerns, as well as input from
            Department program managers.

        •   Ensure that each year 80 percent of all planned performance reviews
            address high-risk areas as identified in the OIG annual risk-based
            programmatic assessments.

        •   Strive for the Department to accept 75 percent of review
            recommendations.

     2. Objective: Provide timely information to the Department so that prompt
        action can be taken to improve program performance.

        Strategies:

        •   Issue 80 percent of audit reports no later than 60 days following receipt of
            management comments.

        •   Complete 75 percent of special inquiries within 60 days.

        •   Ensure that 90 percent of administrative reports to management are issued
            within 60 days of resolution of criminal and civil investigations.

        •   Complete follow-up inspections and special inquiries as identified in the
            OIG annual plans within 90 days of initiation.

        •   Complete the fieldwork for 80 percent of inspections within 90 days of
            initiation.

     3. Objective: Strengthen financial management and cyber security through
        completion of mandatory reviews in accordance with Office of Management
        and Budget and other applicable requirements.




16
   Strategies:

   •   Complete annually the Department’s consolidated financial statement
       audits to determine whether the financial statements are free from
       material misstatement.

   •   Review the Department’s classified and unclassified information security
       system programs in conjunction with the financial statement audit.

   •   Complete at least ten “Statement of Costs Incurred and Claimed” audits
       annually to assess internal controls over costs claimed by the Department’s
       major contractors.

4. Objective: Concentrate investigative efforts on allegations of criminal and
   civil violations of law that adversely impact major Department programs and
   operations, with emphasis on maximizing the recovery of public resources and
   deterring future wrongdoing.

   Strategies:

   •   Achieve an annual acceptance rate of 70 percent for cases presented for
       prosecutorial consideration.

   •   Ensure that 75 percent of all cases opened focus on key areas of
       Department vulnerability, specifically procurement and grant fraud,
       environmental violations, qui tams, or computer crimes.

5. Objective: Coordinate with other law enforcement agencies to establish
   effective networks in order to identify areas that are most vulnerable to
   waste, fraud, and abuse.

   Strategy:

   •   Ensure at least 25 percent of all open cases are joint agency/task force
       investigations with external law enforcement agencies, such as the Federal
       Bureau of Investigation and other OIGs.

6. Objective: Heighten awareness of potential fraud among internal and
   external customers.

   Strategy:

   •   Provide 20 fraud awareness briefings annually to Department and
       contractor employees and managers.


                                                                                     17
      Goal 3: Support the Taxpayer


     1. Objective: Provide an effective and efficient mechanism for the Department
        and the public to report waste, fraud, and abuse.

        Strategies:

        •   Operate the OIG Hotline in a manner that ensures at least 80 percent of
            Hotline complaints warranting further action begin processing within 7 days
            of receipt.

        •   Forward 85 percent of the complaints identified for referral to the
            Department within 14 days of initiation of the case.

     2. Objective: Report to the public.

        Strategy:

        •   Ensure that all OIG public reports are accessible via the Internet within 4
            working days of submission to the Secretary.




18
                          Our Resources

                                      Budget
                        FY 2003      FY 2004      FY 2005      FY 2006     FY 2007      FY2008

      Appropriation     37,671,000   39,642,000   40,640,000   41,610,000 42,441,000   43,287,000

Salaries                20,235,000   21,250,000   22,547,000   23,215,000 23,521,000   24,243,000
PCS - Benefits             280,000      200,000      200,000      200,000    200,000      200,000
Benefits and Awards      6,269,000    6,235,000    6,330,000    6,487,000 6,514,000     6,546,000
Audit Contract           6,000,000    7,021,000    6,708,000    6,943,000 7,186,000     7,437,000
Contractual Services       214,000      129,000      130,000      199,000    136,000      130,000
ADP                        902,000      804,000      902,000      748,000 1,066,000       923,000
PCS - Contract             175,000      125,000      125,000      125,000    125,000      125,000
Training                   386,000      392,000      392,000      387,000    387,000      377,000
Travel                   1,470,000    1,525,000    1,525,000    1,525,000 1,525,000     1,525,000
Working Capital Fund     1,740,000    1,781,000    1,781,000    1,781,000 1,781,000     1,781,000
Estimated Obligations   37,671,000   39,462,000   40,640,000   41,610,000 42,441,000   43,287,000




                                      Human




                                                                                                    19
                              Critical Outside
                                Influences
     Numerous external factors could affect the achievement of the OIG goals and
     objectives. Specifically, these factors could create a significant impact on
     workloads, formulating budgets, assessing organizational structure, evaluating
     procedures, and establishing priorities. Some examples include:

     Secretarial/Congressional Priorities - Unplanned, resource intensive, but
     nevertheless important, quick turnaround requests by the Secretary and Congress
     could impact on planned work and thus affect progress towards achieving the OIG
     goals and objectives.

     New Statutory Requirements - New legislative mandates and unfunded audit,
     investigative, inspection, or inquiry requirements would have a direct impact on
     the OIG strategic plan. Specifically, new statutory requirements could divert
     resources away from other critical areas, including evaluating the performance of
     the Department’s programs and operations as they relate to the President’s
     Management Agenda, the Secretary’s priorities, and the most serious management
     challenges facing the Department. The OIG goals and objectives are built around
     many of these areas.

     Recruitment and Retention - A number of factors could significantly impact the
     OIG’s ability to attract and retain a skilled and diverse workforce. The OIG
     consists of highly trained professional staff whose skills are in demand in both the
     public and private sectors. Consequently, vacancies are often difficult and time
     consuming to fill. Since September 11, 2001, the OIG faces even more
     competition from many law enforcement agencies within the Federal
     Government. For example, the Federal Bureau of Investigation has initiated a
     hiring effort to fill 1,000 vacancies. In addition, the OIG will be competing
     with the establishment of the Transportation Security Administration, and the
     creation of the Department of Homeland Security which could attract talent
     away from the OIG.




20
                       Linking the Planning
                       Documents Together
The OIG’s Strategic Plan provides the framework for the annual planning process.
The OIG’s annual performance plans reflect specific audit, investigation,
inspection, and inquiry work that is consistent with the mission, goals, and
objectives outlined in the Strategic Plan. In addition, the annual plans provide
more detailed performance information, including annual performance indicators
and targets, for how the OIG intends to measure its performance annually against
the long-term goals and objectives contained in the strategic plan. This linkage
will enable the OIG to evaluate its annual performance in meeting the long-term
goals and objectives.



 The President’s Management Agenda and the OIG

The first priority of the President’s Management Reform Agenda is to make the
Government citizen-centered. This Agenda calls for Federal agencies to reshape
their organizations to meet a standard of excellence in attaining the outcomes
important to their customers and stakeholders. In light of this initiative and the
Department’s priorities, the OIG has taken steps to improve its programs and
operations in the following areas:


             Human Resource Challenge

Strategic Management of Human Capital is one of the President's five major
Management Initiatives and has become one of the most significant challenges
facing the Federal Government. The OIG is committed to resolving this challenge
in preparation for a potential loss of 23 percent of OIG staff to retirement over
the next 5 years. In order to mitigate the negative consequences of this event
including the obvious loss of institutional knowledge, and continue to overcome
the effects of a 30 percent reduction of its workforce from 1994, the OIG has and
will continue to implement a variety of Human Capital Management improvement
initiatives including making maximum use of all flexibilities currently in place to
recruit and develop talent and leadership. These tools will greatly enhance the
OIG's ability to meet its goal to develop and maintain a highly skilled, well
qualified, and diverse workforce to successfully accomplish mission objectives.



                                                                                      21
     The Office recruits professional auditors, criminal investigators, inspectors,
     program analysts, and administrative support personnel. Since the skills mix
     required for many of these positions is in such high demand, the OIG faces the
     daunting challenge of recruiting entry-level talent to fill these positions in a very
     competitive market. At the same time, additional skills not traditionally
     mandatory for OIG occupations are now required, such as computer literacy.
     Consequently, the OIG intends to pursue the use of all available flexibilities,
     including payment for student loans and professional credentials as well as
     retention and relocation bonuses, as funds permit. The OIG is currently using
     recruitment bonuses as a hiring incentive.

     In order to strengthen and leverage its Strategic Management of Human Capital,
     the OIG plans to implement the new Human Capital Management Improvement
     Standards for Success measures developed by the Office of Personnel
     Management, the Office of Management and Budget, and the General Accounting
     Office. These measures, when used in conjunction with a self assessment, will
     serve as a roadmap for measuring the OIG's effectiveness in the areas of: strategic
     alignment of human capital with the mission, goals, and organizational objectives;
     workforce planning and deployment; leadership and diversity; knowledge
     management; performance culture; and talent. Additionally, these measures will
     provide a valuable baseline for evaluating progress and reporting successes in a
     continuing effort to improve human capital management within the OIG.

     To meet its goal, the OIG will continue to aggressively implement and update,
     as necessary, human capital management initiatives contained in its 5-year
     Workforce Restructuring Plan. For example, the OIG will continue to:
     (1) streamline operations, redirect positions to the front-line, increase spans
     of control, and reduce the number of managers and organizational layers,
     (2) make use of all the recruitment flexibilities in place to effectively staff vacant
     and critical positions with the right skills mix including partnering with universities
     to utilize the Student Career Experience authority, (3) refine its succession
     planning efforts for leadership recruitment including the identification,
     development, and succession of potential leaders within the organization which
     includes specific objectives, actions, and timetables and an analysis of candidate
     pools, (4) integrate human capital management outcomes with all planning and
     budget documents, (5) establish effective learning tools to train, develop and
     retain employees, and (6) expand the use of automated human resources systems.

     Finally, the OIG is particularly vulnerable to reductions in funding and staffing.
     Because the OIG plans its work annually according to anticipated resources, any
     decrease in staffing or funding would adversely affect its ability to achieve its
     mission goals and objectives. Reduced funding in this revenue-positive
     organization results in lost opportunities to improve Department programs and
     operations and increase program efficiencies.


22
             Performance Management System


The OIG implemented the Department’s performance management system for the
Senior Executive Service (SES) employees, which ties individual performance to
the accomplishment of program and organizational goals and performance. This
system emphasizes the accomplishment of outcomes, not just outputs. The OIG is
in the process of cascading the principles of this system to non-SES managers and
supervisors.


             Budget and Performance Integration


Another major Governmentwide initiative is the full integration of performance
and budget information. In this regard, all performance information, including
the strategic goals, objectives, indicators, and annual targets, is integrated with
the OIG’s annual fiscal year budget and submitted to Congress as a performance-
based, results-driven document. Integration of budget and performance
information will be further refined and strengthened in the future.




                                                                                      23
                            Working Together

     A critical element in carrying out the OIG’s audit, investigation, inspection, and
     inquiry work is the OIG’s collaboration with other organizations.


      President’s Council on Integrity and Efficiency

     The Inspector General is a member of the President’s Council on Integrity and
     Efficiency (PCIE), which is comprised of Presidentially appointed Inspectors
     General. The PCIE was established by Executive Order 12805 to: (1) address
     integrity, economy, and effectiveness issues that transcend individual Government
     agencies, and (2) increase the professionalism and effectiveness of IG personnel
     throughout the Government. To accomplish its mission, the PCIE conducts inter-
     agency and inter-entity audit, inspection, and investigation projects to promote
     economy and efficiency in Federal programs and operations and address more
     effectively Governmentwide issues of fraud, waste, and abuse. The PCIE also
     develops policies, standards, and approaches to aid in the establishment of a well-
     trained and highly skilled IG workforce. Currently, the Energy Inspector General
     chairs the PCIE Audit Committee. This committee serves as a resource for the
     audit community and has promoted the following initiatives relating to the
     President’s Management Initiative, “Improved Financial Performance:”

        •   IG-CFOs (Chief Financial Officers) Best Practices – Began the process of
            developing “best practices” for agency financial statement auditing.

        •   Financial Audit Manual – Worked with the General Accounting Office (GAO)
            to revise the Financial Audit Manual. A joint GAO/PCIE working group was
            established to update the manual chapters. Upon completion of this
            project, the PCIE community and the GAO will have, for the first time, a
            single reference for auditing agency financial statements.




24
 GAO and Defense Contract Audit Agency

The OIG coordinates with the GAO to prevent duplication of effort. Cooperation
between the OIG and the GAO is essential to maintaining effective and efficient
audit activities. The OIG also collaborates with the Defense Contract Audit
Agency (DCAA). The DCAA is responsible for auditing incurred costs at non-
integrated contractor locations. As the cognizant audit authority, the OIG is
responsible for ensuring that the relationship with DCAA functions properly.



   Department of Justice and Other Law
          Enforcement Agencies

The OIG mutually provides support to and receives support from the Department
of Justice, United States Attorneys’ offices, and State and local prosecutors
throughout the country. Investigative results regarding alleged violations of
criminal and civil statutes are referred to Federal prosecutors for action. When
appropriate, the OIG may also seek prospective action through State and local
authorities. In addition, the OIG provides support to and receives support from
other law enforcement agencies on task force/joint agency investigations.

The OIG also participates with the Department of Justice in a Justice
Telecommunications (JUST) System administrative audit of the National Crime
Information Center (NCIC) terminal located at OIG Headquarters. JUST is a data
archive and retrieval system that provides NCIC access to users worldwide. In
addition to the NCIC terminal located at Headquarters, the OIG has three
additional NCIC terminals located at field offices throughout the country, and
each terminal is audited biennially. The audits are designed to ensure that
training, security, and dissemination of information are in compliance with
established policies. An audit is planned for FY 2003.


 Intelligence Related Activities

The OIG is a member of the Inspector General Intelligence Community Forum,
which serves as a mechanism for sharing information among those Inspectors
General whose duties and responsibilities include oversight of programs and
operations of intelligence community elements. The OIG participates on
interagency working groups responsible for conducting reviews of interagency



                                                                                   25
     programs or operations. In addition, the OIG provides quarterly reports to the
     Intelligence Oversight Board in accordance with Executive Order 12863,
     “President’s Foreign Intelligence Advisory Board,” regarding intelligence activities
     that the OIG believes may be unlawful or contrary to Executive order, Presidential
     directive, or the DOE intelligence procedures.


        Annual Interagency IG Export Control Review

     The National Defense Authorization Act for FY 2000 requires the Inspectors
     General of the Departments of Energy, Commerce, Defense, State, and Treasury,
     and the Central Intelligence Agency to report to the President by March 30 of each
     year through FY 2007 on policies and procedures of the United States Government
     with respect to the export of technologies and technical information with
     potential military applications to countries and entities of concern. Pursuant to
     this legislation, the Inspectors General have and will continue to jointly develop
     and conduct annual interagency reviews.




26
                      Program Evaluations

The OIG initiated a comprehensive management evaluation of its Strategic
Planning Program. As a result of this review, the OIG refined its program strategic
performance goal and objectives, performance indicators, and targets in
conjunction with updating its Fiscal Years (FYs) 2003 through 2008 Strategic Plan.
Additional program evaluations include the following:


             Peer Reviews and Quality Assurance Reviews

The OIG is subject to an external Peer Review conducted by another IG Office
every 3 years (next review 2003-2004 cycle). The review is conducted in
conformance with standards and guidelines established by the PCIE and usually
covers the last two semiannual reporting periods. The purpose of this review is to
report on the system of quality control for the audit function and compliance with
that system.

In addition, each year the OIG conducts an internal quality assurance review of
the entire audit process for financial and performance audit reports issued. The
program is designed so that each of the 15 field audit offices is reviewed once
every 3 years. The objectives of the reviews are to assure that audit guidance
conforms with generally accepted Government Auditing Standards and that audit
work is conducted in accordance with the Government Auditing Standards
published by the Comptroller General of the United States (Yellow Book), Office of
Management and Budget requirements, and internal OIG quality control policies
and procedures. The review covers the audit reports issued in the prior fiscal
year.


              Quality Assurance Review Program


The OIG established the Quality Assurance Review (QAR) program for the purpose
of evaluating whether:

     •   Investigative offices are operating in compliance with relevant Federal
         laws and Department and OIG regulations, orders, and policies;

                                                                                      27
         •   Field operations are in compliance with the Office of Investigations’
             objectives and priorities; and

         •   Field managers administer personnel, fiscal, and other resources in an
             efficient and effective manner.

     This program involves an intensive 1-week internal inspection and the issuance of
     final assessment reports and corrective action plans. The QAR will be modified as
     necessary to ensure it is consistent with the pending PCIE Qualitative Assessment
     Review process that involves a peer review of the investigative operations of the
     OIG community.




28
